U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                                 March 8, 2006
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the eighth since enactment of the legislation in October 2001 – summarizes the
OIG’s Section 1001-related activities from July 1, 2005, through December 31,
2005.

I. INTRODUCTION

      According to the Inspector General Act, the OIG is an independent entity
within the DOJ that reports to both the Attorney General and Congress. The
OIG’s mission is to investigate allegations of waste, fraud, and abuse in DOJ
programs and personnel and to promote economy and efficiency in DOJ
operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division provides an alternative
           mechanism to traditional audits and investigations to review
           Department programs and activities.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.



        1 The OIG can investigate allegations of misconduct by any Department employee,

except for allegations of misconduct by attorneys (or investigators working under the direction
of Department attorneys) acting in their capacity to litigate, investigate, or provide legal advice.
See Pub. L. 107-273 § 308, 116 Stat. 1784 (Nov. 2, 2002). It is the Department’s view that
enactment of Section 1001 of the Patriot Act did not alter the existing jurisdictional authorities
of the OIG and OPR to investigate allegations of misconduct by attorneys.


Office of the Inspector General, U.S. Department of Justice                             Page 1
      •   Oversight and Review Division blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division assists the OIG by providing
          services in the areas of planning, budget, finance, personnel, training,
          procurement, automated data processing, computer network
          communications, and general support.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 400 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001. 2 The
Special Agent in Charge who directs this unit is assisted by three Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001 and
DEA matters, a second who assists on FBI matters, and a third who provides
support on ATF cases. In addition, four Investigative Specialists support the
unit and divide their time between Section 1001 and FBI/DEA/ATF
responsibilities.

       The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by the Investigative Specialist and an ASAC. After review, the
complaint is entered into an OIG database and a decision is made concerning
its disposition. The more serious civil rights and civil liberties allegations that
relate to actions of DOJ employees or DOJ contractors normally are assigned to
an OIG Investigations Division field office, where OIG special agents conduct
investigations of criminal violations and administrative misconduct. 3 Some
complaints are assigned to the OIG’s Oversight and Review Division for
investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs (OIA) for appropriate handling. In certain referrals, the OIG requires the
components to report the results of their investigations to the OIG. In most
cases, the OIG notifies the complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff are sent to the Department of Homeland
      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively, even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
Security (DHS) OIG. We also have forwarded complaints to the OIGs at the
Department of Veterans Affairs, Department of State, United States Postal
Service, Department of Defense, Department of Interior, Social Security
Administration, Department of Education, and the Equal Employment
Opportunity Commission. In addition, we have referred complainants to
several Department of Corrections internal affairs offices that have jurisdiction
over the subject of the complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the complaint is
discussed with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution.

     A. Complaints Processed This Reporting Period

       From July 1, 2005, through December 31, 2005, the period covered by
this report, the OIG processed 701 complaints that were sent primarily to the
OIG’s Section 1001 e-mail or postal address. 4

       Of these complaints, we concluded that 570 did not fall within the OIG’s
jurisdiction or did not warrant further investigation. Slightly more than half of
the complaints – 315 of the 570 – involved allegations against agencies or
entities outside of the DOJ, including other federal agencies, local
governments, or private businesses. We referred those complaints to the
appropriate entity or advised complainants of the entity with jurisdiction over
their allegations. The remaining 255 complaints raised allegations that, on
their face, did not warrant an investigation. For example, complaints in this
category included allegations that FBI agents pumped chemical substances
into a complainant’s home, injected individuals with a memory loss substance,
and altered a complainant’s physical appearance.

      Consequently, 131 of the 701 complaints involved DOJ employees or
components and included allegations that required further review. Of those
complaints, 123 raised management issues, and we referred them to DOJ
components for appropriate handling. Examples of complaints in this category
included inmates’ allegations about the general conditions at federal prisons or
complaints that the FBI did not initiate an investigation into a particular
complainant’s allegations. The OIG identified 6 of the 123 matters referred to
DOJ components as warranting monitoring by the OIG, and in these 6 cases
we directed the DOJ components to which the allegations were referred to
report to us on the findings from their investigations.
     4 This number includes all complaints in which the complainant makes any mention of a
Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction.


Office of the Inspector General, U.S. Department of Justice                             Page 4
      Four of the 131 complaints did not provide sufficient detail to make a
determination whether an abuse was alleged. We requested further
information but did not receive responses from these four complainants.

      The OIG identified 4 matters out of the 131 that we believed warranted
opening a Section 1001 investigation or conducting a closer review to
determine if Section 1001-related abuse occurred. As discussed in the next
section, the OIG opened investigations on two of the complaints and referred to
the BOP two of the complaints for an investigation.

       None of the 701 complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act. In addition, as summarized in Section V below, the OIG
examined the FBI’s reporting to the President’s Intelligence Oversight Board
(IOB) of possible intelligence violations, including violations of the Foreign
Intelligence Surveillance Act of 1978, statutes involving the issuance of
National Security Letters, Attorney General Guidelines, and internal FBI policy.
Some of these intelligence authorities had been altered or expanded by
provisions of the Patriot Act. As we also discuss in Section V, we cannot say
from our review of FBI reports to the IOB whether or not the possible IOB
violations resulted from the changes brought about by the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period:

Complaints processed:                              710

Unrelated complaints:                              570

Complaints within OIG’s
  jurisdiction warranting review:                  131

Non-Section 1001 matters
     Management issues:                            123
       Referred to a DOJ component
        for investigation:                            6
     OIG unsuccessfully sought
      further details:                                4

Section 1001 matters
  warranting review:                                  4




Office of the Inspector General, U.S. Department of Justice           Page 5
    B. Section 1001 Cases This Reporting Period

      1. New matters

      During this reporting period, the OIG initiated two new Section 1001-
related investigations, referred two Section 1001 matters to the BOP to
investigate and provide the OIG with its findings, continued four ongoing
Section 1001-related cases, and closed three Section 1001 investigations from
a previous reporting period. The following describes the two new OIG matters,
both of which were closed during the reporting period:

   ● The OIG investigated allegations made by a BOP inmate that a
     correctional counselor confiscated and destroyed his Koran when the
     inmate left it on his pillow while his cell was unoccupied. Allegedly,
     when the complainant inquired about having his Koran returned, the
     correctional counselor verbally abused him in front of several inmates
     and threatened to spread a rumor that the inmate was an informant.
     The OIG did not substantiate the allegations. During the investigation,
     the complainant told the OIG that he did not believe there was a
     pervasive problem at the facility regarding abuse of Muslim inmates and
     that the executive staff is approachable and addresses inmates’
     concerns. The complainant also said he received a replacement Koran
     approximately two weeks after the incident. The OIG provided a copy of
     its report to the BOP.

   ● The OIG investigated allegations made by BOP inmates incarcerated at a
     contract correctional facility that staff members distributed “anti-Islamic”
     literature; discouraged inmates from pursuing an interest in Islam;
     denied Muslim inmates access to the chapel; confiscated Muslim
     inmates’ prayer rugs; failed to provide Muslim inmates with a religious
     program or a chaplain; and assaulted the Muslim inmates and referred
     to them as “terrorist devils.” The OIG’s investigation determined that the
     inmate complaints were unsubstantiated and the complainants were
     inaccurate in their depictions of the staff’s conduct and the services
     offered at the facility. The investigation concluded that the staff did not
     engage in discriminatory practices against the Muslim inmates. The OIG
     provided a copy of its report to the BOP.

       The OIG referred the following two matters to the BOP for investigation
as Section 1001 matters and requested that the BOP provide the OIG a copy of
its investigative report upon completion of the investigation.

   ● The OIG directed that the BOP investigate a complaint from a BOP
     inmate who alleged that he was removed from his prison job after
     receiving an incident report for having telephonic communications in


Office of the Inspector General, U.S. Department of Justice            Page 6
      Arabic with his family. The inmate also alleged that he is not allowed to
      write or receive mail in Arabic and that because of the telephone and
      mail restrictions imposed on him, he has been unable to communicate
      with his family in over 20 months.

   ● The OIG directed that the BOP investigate an allegation from a BOP
     inmate that Muslim inmates were denied their Ramadan meals and
     verbally abused by a correctional officer. The complainant further
     alleged that on one of the days he was denied his Ramadan meal, he
     placed his arm through the food tray slot and the correctional officer
     “slammed” his arm in the door and threatened him.

      2. Cases opened during previous reporting periods

   ● The OIG investigated allegations made by an Egyptian national that
     during his detention at a BOP facility he was subjected to a body cavity
     search in the presence of numerous people, including a female officer;
     placed alone in a cell under severe restrictions for more than 2 months;
     and had his ability to practice his religion undermined intentionally by
     the prison staff. The investigation revealed that several correctional
     officials deviated from BOP procedures in processing the male detainee
     into the facility by conducting a body cavity search in the vicinity of
     female staff and later tried to conceal their role in the detainee’s
     processing. The OIG presented this matter to the U.S. Attorney’s Office
     for a prosecutive decision, and it declined prosecution. The OIG is
     preparing its report of investigation to present to the BOP for
     administrative action.

   ● The OIG investigated allegations made by a BOP inmate that correctional
     officers in a BOP facility humiliated and abused Muslim inmates because
     of the officers’ hatred of Muslims. The inmate alleged that correctional
     officers used excessive force on him, gave other inmates permission to
     assault him, and then covered up the incidents. The inmate also alleged
     that BOP staff improperly denied him showers, social visits, and the right
     to attend religious services. The investigation did not substantiate the
     allegations. The OIG is preparing its report of investigation for the BOP.

   ● The OIG investigated a complaint from a former Muslim BOP correctional
     officer who alleged that staff members at a BOP facility referred to certain
     inmates as terrorists; displayed offensive posters depicting Muslim
     prisoners throughout the facility; referred to him as “Bin Laden,”
     “terrorist,” and “towel-head;” and posted a picture of an eagle with its
     middle finger raised which read “Jihad this.” The investigation did not
     substantiate the allegations. The OIG is preparing its report of
     investigation for the BOP.



Office of the Inspector General, U.S. Department of Justice            Page 7
   •   The OIG is investigating allegations raised by a Muslim inmate in a BOP
       correctional facility that he was praying in the facility’s library when a
       correctional officer ordered him to stop, made derogatory remarks about
       his religious beliefs, issued him an incident report, and placed him in
       solitary confinement. The investigation did not support the allegation
       that the inmate was physically or verbally abused in any way, but did
       reveal that the BOP does not have a policy designating where and when
       inmates can pray. The OIG is preparing its report of investigation for the
       BOP.

       3. OIG investigations closed during this reporting period

   •   The OIG investigated allegations raised by a Muslim inmate that he was
       physically assaulted; verbally abused; denied clothing, food, and water;
       and unjustly detained in solitary confinement for 2 years. When the
       inmate was interviewed, he denied being subjected to any type of
       physical abuse. The OIG closed this matter as unsubstantiated and
       provided a copy of its report to the BOP.

   •   The OIG investigated a complaint in which a BOP inmate alleged that a
       correctional officer ordered him to drop his Koran on the floor outside of
       his cell. According to the complaint, when the inmate complied with the
       order, the officer kicked the Koran and walked away. The OIG’s
       investigation found insufficient evidence to corroborate the allegation.
       The OIG provided its report of investigation to the BOP.

   •   The OIG investigated an allegation from a BOP inmate that while the
       inmate was at prayer services an Assistant Warden entered his cell and
       ordered a correctional officer to confiscate his prayer rug and Koran and
       to dispose of the items in the garbage incinerator. Interviews of BOP
       staff members revealed that the inspecting staff confiscated inmate items
       found to be in violation of storage policy and also improperly confiscated
       the inmate’s religious items. When notified that religious items were
       present in the property marked for destruction, staff attempted to
       retrieve the religious items but discovered the items already were
       destroyed. Interviews with other inmates confirmed that staff confiscated
       and destroyed all inmate personal property violating storage policy,
       regardless of the inmate’s religious affiliation. We did not substantiate
       that the religious property of inmates was singled out for confiscation
       and destruction. The OIG provided its report of investigation to the BOP.

       4. Brandon Mayfield matter

      Brandon Mayfield, a Portland, Oregon, attorney, was arrested by the FBI
in May 2004 as a material witness after FBI Laboratory examiners identified
Mayfield’s fingerprint as matching a fingerprint found on a bag of detonators


Office of the Inspector General, U.S. Department of Justice             Page 8
connected to the March 2004 terrorist attack on commuter trains in Madrid,
Spain, that killed almost 200 people and injured more than 1,400 others.
Mayfield was released two weeks later when the Spanish National Police
identified an Algerian national as the source of the fingerprint on the bag. The
FBI Laboratory subsequently withdrew its fingerprint identification of Mayfield.

       This OIG review examined the FBI’s misidentification, investigation, and
detention of Mayfield. The OIG sought to determine the causes of the
misidentification and the FBI Laboratory’s responses to the error. As part of
this effort, the OIG consulted with three latent fingerprint experts from outside
the FBI. In addition, the OIG examined whether the FBI used the Patriot Act in
connection with the investigation of Mayfield, whether the FBI targeted
Mayfield because of his Muslim religion, and whether Mayfield’s conditions of
confinement were inappropriate.

       The OIG found that several factors caused the FBI’s misidentification of
the fingerprint found on the bag of detonators. First, the unusual similarity
between Mayfield’s fingerprint and the fingerprint found on the bag (referred to
as Latent Fingerprint Number 17 or LFP 17) confused three experienced FBI
examiners and a court-appointed expert. The OIG concluded, however, that
FBI examiners committed errors in the examination procedure and that the
misidentification could have been prevented through a more rigorous
application of several principles of latent fingerprint identification.

      Specifically with regard to the causes of the misidentification, the OIG
found:

   •   In identifying Mayfield as the source of LFP 17, the FBI examiners relied
       in significant part on the relationship of “minutiae” or “points” within the
       prints. Ten of the points in LFP 17 that were used to identify Mayfield
       also were later used by different FBI examiners to identify Ouhnane
       Daoud, the Algerian national ultimately identified as the source of LFP
       17. These 10 features in LFP 17 generally were consistent with a
       constellation of points in the fingerprints of both Mayfield and Daoud.
       The OIG found that such a degree of similarity between fingerprints from
       two different people is extremely unusual. Despite the similarities,
       Mayfield and Daoud did not have identical fingerprints. The OIG found
       that the types of points were different in several respects and other
       subtle but important differences existed between the prints.

   •   The OIG found that the FBI fingerprint examiners’ interpretation of some
       features of LFP 17 was adjusted or influenced by reasoning backward
       from features that were visible in known samples of Mayfield’s prints.
       Having found as many as 10 points of unusual similarity, the FBI
       examiners began to “find” additional features of LFP 17 that were not
       really there, but rather were suggested to them by features in the


Office of the Inspector General, U.S. Department of Justice              Page 9
       Mayfield prints. As a result of this “circular reasoning,” murky or
       ambiguous details in LFP 17 were identified erroneously as points of
       similarity with Mayfield’s prints.

   •   The OIG found that examiners gave significant weight to the purported
       agreement of extremely tiny details in LFP 17 and Mayfield’s fingerprint
       known as “Level 3” details. Because Level 3 details are so small, the
       appearance of such details in fingerprints is highly variable, even
       between different fingerprint impressions made by the same finger. As a
       result, the reliability of Level 3 details is the subject of debate within the
       fingerprint community. The OIG found that none of the purported
       Level 3 features in LFP 17 used to identify Mayfield corresponded to
       features in the known prints of Daoud. Therefore, the examiners
       apparently misinterpreted distortions in LFP 17 as real features
       corresponding to Level 3 details seen in Mayfield’s known fingerprints.
       The OIG concluded that the examiners’ reliance on Level 3 details in this
       case was misplaced and contributed to the erroneous identification.

   •   FBI fingerprint examiners follow the “one discrepancy rule” under which
       a single difference in appearance between a latent fingerprint and a
       known fingerprint must rule out an identification unless the examiner
       has a valid explanation for the difference. In addition, according to the
       FBI, latent fingerprint identifications are subject to a standard of
       100 percent certainty. The OIG found that the available information did
       not support this degree of certainty for the explanations the examiners
       adopted for several differences in appearance between LFP 17 and
       Mayfield’s fingerprint. For example, the FBI recognized that the entire
       upper left portion of LFP 17 did not correspond with Mayfield’s
       fingerprint. The examiners explained this difference as the result of a
       separate touch, possibly by a different finger or a different person.
       However, this explanation required the examiners to accept an
       extraordinary set of coincidences, and the OIG found that support for
       this explanation was, at best, contradictory.

   •   The FBI missed an opportunity to catch its error when the Spanish
       National Police informed the FBI on April 13, 2004, that it had reached a
       “negative” conclusion with respect to matching LFP 17 to Mayfield’s
       fingerprints. At that time, the FBI Laboratory did not adequately explore
       the possibility that it had erred in identifying Mayfield. The OIG
       concluded that the FBI Laboratory’s overconfidence in the skill and
       superiority of its examiners prevented it from taking the Spanish
       National Police’s April 13 “negative” report as seriously as it should have.

     The OIG also investigated whether the FBI fingerprint examiners were
made aware of and improperly influenced by knowledge of Mayfield’s religion
when they made the identification of LFP 17. We determined that the FBI


Office of the Inspector General, U.S. Department of Justice                Page 10
examiners were not aware of Mayfield’s religion at the time they concluded that
Mayfield was the source of LFP 17. The records available to the examiners did
not reveal his religion or his representation of other Muslims as an attorney.
The OIG found no evidence that the FBI Laboratory had knowledge of
Mayfield’s religion until the FBI’s Portland Division learned this fact in the early
stages of its field investigation of Mayfield, after the identification had been
made and verified by the FBI Laboratory.

       However, the OIG found that the issue of whether Mayfield’s religion was
a factor in the Laboratory’s failure to revisit its identification and discover its
error in the weeks following the initial identification was a more difficult
question. By the time the Spanish National Police issued its April 13 “negative”
report, the Laboratory examiners had become aware of information about
Mayfield obtained in the course of the Portland Division’s investigation,
including the fact that Mayfield had acted as an attorney for a convicted
terrorist, had contacts with suspected terrorists, and was a Muslim. The OIG
concluded that Mayfield’s religion was not the sole or primary cause of the
FBI’s failure to question the original misidentification and catch its error. The
primary factors were the similarity of the prints and the Laboratory’s
overconfidence in the superiority of its examiners. However, we believe that
Mayfield’s representation of a convicted terrorist and other facts developed
during the field investigation, including his Muslim religion, also likely
contributed to the examiners’ failure to sufficiently reconsider the identification
after legitimate questions about it were raised by the Spanish National Police.

      In addition, the OIG reviewed the FBI’s conduct in its investigation and
arrest of Mayfield following the Laboratory’s identification of him as the source
of LFP 17, including its use of statutes that were amended by the Patriot Act.
As part of its investigation, the FBI obtained authority to conduct covert
surveillance and searches of Mayfield pursuant to the Foreign Intelligence
Surveillance Act of 1978 (FISA). The OIG concluded that the FBI likely would
have sought and been able to obtain FISA authorization for the searches and
surveillance it conducted in this case even without the amendments to FISA
contained in Section 218 of the Patriot Act (changing the “primary purpose”
standard for issuance of a FISA warrant to a “significant purpose”). However,
we found that the Patriot Act did affect the FBI’s ability to share information
about Mayfield gathered in the FISA surveillance and searches with
prosecutors and other law enforcement agents.

       We also found that, contrary to public speculation after Mayfield’s arrest,
the FBI did not use certain other provisions of the Patriot Act in the Mayfield
case. For example, Section 213 of the Patriot Act authorizes delayed
notification of the execution of criminal search warrants. The OIG found that
there were no such delayed notification searches conducted in the Mayfield
investigation. All the covert searches of Mayfield before his arrest were
conducted pursuant to a FISA warrant, not a criminal search warrant. After


Office of the Inspector General, U.S. Department of Justice               Page 11
his arrest, the searches were based on overt criminal search warrants that did
not implicate the Patriot Act.

       The OIG did not find evidence that the FBI misused any of the provisions
of the Patriot Act in conducting its investigation of Mayfield. However, the
increased information sharing permitted by the Patriot Act amplified the
consequences of the FBI’s fingerprint misidentification in the Mayfield case.

       The OIG also examined whether Mayfield’s religion improperly influenced
the FBI’s field investigation and whether Mayfield’s conditions of confinement
during his two weeks of incarceration were appropriate. The OIG concluded
that the FBI’s field investigation of Mayfield was not improperly influenced by
the FBI’s knowledge of Mayfield’s religion. We concluded that that
investigation was initiated because of, and largely driven by, the identification
of Mayfield’s fingerprint on evidence associated with the train bombings, not by
his religious beliefs. We believe the FBI would have sought covert search and
surveillance authority irrespective of Mayfield’s religion. Moreover, we did not
find evidence suggesting that the investigation was prolonged because Mayfield
is a Muslim.

      With respect to Mayfield’s confinement at the Multnomah County
Detention Center, the OIG found no evidence that Mayfield was mistreated
during his confinement or that his conditions of confinement violated the
material witness statute.

     The OIG review did not find any intentional misconduct by FBI
employees. However, we made a series of recommendations to help the FBI
address the Laboratory issues raised by the Mayfield case.

        In addition to the OIG’s review, DOJ OPR conducted an investigation into
the conduct of the Department attorneys in the Mayfield matter. The OIG
initially had intended to investigate the entire Mayfield matter, including the
conduct of the DOJ attorneys working with the FBI. We believed that one DOJ
oversight entity should investigate the matter, and we also concluded that the
OIG had jurisdiction under Section 1001 of the Patriot Act to investigate
allegations of civil rights or civil liberties abuses against DOJ employees,
including DOJ attorneys. However, DOJ OPR disagreed. It contested our
jurisdiction over attorneys in the Mayfield case, and asserted jurisdiction over
the entire matter because it argued that the alleged misconduct of the FBI
agents was related to that of the attorneys. It also disagreed with our position
that Section 1001 provided us the authority to review the conduct of attorneys.
Eventually the Deputy Attorney General resolved the matter by ruling that the
Patriot Act did not change the existing jurisdiction between the OIG and OPR,
and that OPR should investigate the conduct of attorneys and the OIG should
investigate the conduct of FBI agents in the Mayfield case.



Office of the Inspector General, U.S. Department of Justice            Page 12
      As a result of its investigation, DOJ OPR concluded that the DOJ
attorneys assigned to the Mayfield matter did not commit misconduct.

        On January 6, 2006, the OIG issued an unclassified executive summary
of its findings. Since then, the OIG has been working within the Department to
declassify and release publicly as much of the full report of investigation as
possible. The OIG has made significant progress in this effort and intends to
release publicly the full report, with any required redactions, in the near
future.

IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. Using this approach, the OIG has initiated
or continued several special reviews that relate, in part, to the OIG’s duties
under Section 1001. We also report on several reviews that DOJ OPR has
initiated during this reporting period.

      A. Review of the FBI’s Use of Certain Authorities Amended by the
         Patriot Act

      In December 2005, the OIG initiated a review of the FBI’s use of two
authorities amended by the Patriot Act:

      (1) the FBI’s authority to issue National Security Letters to obtain certain
categories of records from third parties, including telephone toll and
transactional records, financial records, and consumer reports; and

      (2) the FBI’s authority to obtain business records from third parties by
applying for ex parte orders issued by the Foreign Intelligence Surveillance
Court pursuant to Section 215 of the Patriot Act.

      The Patriot Act reauthorization bill currently under consideration by
Congress, known as the USA Patriot Improvement and Reauthorization Act of
2005 (H.R. 3199), contains provisions that direct the OIG to conduct reviews of
the extent to which the FBI has used these authorities; any bureaucratic
impediments to their use; how effective these authorities have been as
investigative tools and in generating intelligence products; how the FBI collects,
retains, analyzes, and disseminates information derived from these authorities;
whether and how often the FBI provided information derived from these
authorities to law enforcement entities for use in criminal proceedings; and
whether there has been any improper or illegal use of these authorities. See
Sections 106A and 119 of the Conference Report No. 109-333 (December 8,
2005).


Office of the Inspector General, U.S. Department of Justice             Page 13
       While the Patriot Act legislation directing the OIG to submit these annual
reports has not yet been enacted, the OIG has already initiated its review of
these issues. Our reviews will include examination of FBI investigative files,
interviews of FBI and other DOJ officials, visits to FBI field offices, and an
analysis of the FBI’s use of these authorities in the last several years.

       B. Supplemental Report on September 11 Detainees’ Allegations
          of Abuse at the Metropolitan Detention Center in Brooklyn,
          New York

      An OIG special review issued in December 2003 (and described in detail
in our January 2004 Section 1001 report) examined allegations that some
correctional officers physically and verbally abused some detainees held in
connection with the Department’s terrorism investigation at the Metropolitan
Detention Center (MDC) in Brooklyn, New York. 5 We concluded that certain
MDC staff members abused some of the detainees, and we found systemic
problems in the way detainees were treated at the MDC. In December 2003,
we provided the results of our investigation to the BOP for its review and
appropriate disciplinary action.

       In response to our report and recommendations, the BOP OIA initiated
an investigation to determine whether BOP OIA could independently sustain
the OIG’s findings sufficient to present to BOP disciplinary officials. During
this reporting period, BOP OIA issued its findings to BOP disciplinary officials,
who initiated a disciplinary process against 13 staff members. The BOP
disciplinary process involves notification of allegations to staff members who
have an opportunity to present their case to the disciplinary officials prior to
the officials making a determination.

      As of February 2006, based on the OIG’s report and the BOP OIA’s
review, the BOP imposed the following discipline on 11 staff members: 2
correctional officers were terminated from the BOP; 2 officers received 30-day
unpaid suspensions; 4 correctional officers received either 2- or 4-day unpaid
suspensions; and 3 senior officers were demoted. These staff members may
appeal their discipline to the Merit Systems Protection Board. The remaining
two staff members are awaiting decisions by BOP disciplinary officials. The
BOP has indicated to us that the decisions on these staff members are
imminent.


       5 See “Supplemental Report on September 11 Detainees’ Allegations of Abuse at the

Metropolitan Detention Center in Brooklyn, New York” (MDC Report), issued December 18,
2003. The MDC Report supplemented an OIG report issued in June 2003 entitled, “The
September 11 Detainees: A review of the Treatment of Aliens Held on Immigration Charges in
Connection with the Investigation of the September 11 Attacks.” Both reports can be found on
the OIG’s website (www.usdoj.gov/oig) under “OIG Reports” and then “Special Reports.”


Office of the Inspector General, U.S. Department of Justice                      Page 14
      The OIG will continue to monitor the BOP’s actions with regard to
disciplinary action.

      C. Recommendations in the Detainee Report

       In the June 2003 Detainee Report, the OIG made 21 recommendations
related to issues under the jurisdiction of the FBI, the BOP, and leadership
offices at the DOJ, as well as immigration issues now under the jurisdiction of
the DHS. As of this reporting period, 20 of the recommendations have been
resolved. The one open recommendation calls for the Department and the DHS
to enter into a memorandum of understanding (MOU) to formalize policies,
responsibilities, and procedures for managing a national emergency that
involves alien detainees. The DOJ and DHS agreed with the recommendation
and began negotiating over language in the MOU to implement the
recommendation. However, more than two years after the OIG made the
recommendation, the MOU still has not been completed. As of February 2006,
we were informed that discussions between the Department and the DHS over
the language of this MOU remain ongoing.

      D. Review of the FBI’s Implementation of Attorney
         General Guidelines

       In September 2005, the OIG issued a report on the FBI’s implementation
of and compliance with four sets of Attorney General Guidelines: Attorney
General’s Guidelines Regarding the Use of Confidential Informants; Attorney
General’s Guidelines on FBI Undercover Operations; Attorney General’s
Guidelines on General Crimes, Racketeering Enterprise and Terrorism
Enterprise Investigations; and Revised Department of Justice Procedures for
Lawful, Warrantless Monitoring of Verbal Communications. These guidelines
govern the FBI’s principal criminal investigative authorities with respect to
investigations of individuals and groups and its use of confidential informants,
undercover operations, and warrantless monitoring of verbal communications
(also known as consensual monitoring).

      Following the September 11, 2001 attacks, the Attorney General ordered
a comprehensive review of the guidelines to identify revisions that would
enhance the Department’s ability to detect and prevent such attacks. In May
2002, the Attorney General issued revised Investigative Guidelines that
provided FBI field managers with greater authority to conduct preliminary
inquiries, general crimes and criminal intelligence investigations, and
undercover operations.

      The OIG’s review examined what steps the FBI has taken to implement
the Attorney General’s Investigative Guidelines, analyzed how effective those
steps have been, and assessed the FBI’s compliance with key provisions of the
guidelines. Because the FBI’s adherence to these guidelines could implicate


Office of the Inspector General, U.S. Department of Justice            Page 15
civil rights or civil liberties issues under Section 1001, we are including a
description of the review in this report.

       While the OIG found many areas in which the FBI complied with the
Attorney General’s Investigative Guidelines, it found significant non-compliance
with the guidelines governing the operation of confidential informants and
failures to notify FBI Headquarters and other Department officials of the
initiation of certain criminal intelligence investigations. We also identified
shortcomings in training on the guidelines and the FBI’s planning for and
implementation of the revised guidelines.

      Specifically with regard to the Confidential Informant Guidelines, we
found one or more Guidelines violations in 87 percent of the confidential
informant files that we examined. Compliance errors were identified in several
aspects of the FBI’s management of the Criminal Informant Program: the FBI’s
conduct of initial and continuing suitability reviews designed to assess the
suitability of individuals to serve as confidential informants (34 percent of the
non-compliant files were initial suitability reviews and 77 percent were
continuing suitability reviews); the instructions FBI agents are to give
confidential informants (49 percent non-compliant files); the use of its power to
authorize confidential informants to participate in “otherwise illegal activity”
(60 percent non-compliant files); the notification requirements associated with
a confidential informant’s commission of “unauthorized illegal activity” (42
percent non-compliant files); and the necessary steps agents must take when a
confidential informant is deactivated (37 percent non-compliant files).

      The OIG’s final report offered 47 recommendations designed to promote
greater accountability for guidelines violations, enhance training on guidelines
requirements and the consequences of guidelines violations to FBI
investigations and Department prosecutions, require supervisory approval and
more systematic recordkeeping on the FBI’s use of new authorities to visit
public places and attend public events for the purpose of detecting and
preventing terrorist activities, and prepare a comprehensive implementation
strategy for the next guidelines revisions. The FBI concurred with 43 of the 47
recommendations and partially concurred with the 4 remaining
recommendations.

      E. Ojeda Rios Shooting

      In September 2005, at the request of the FBI Director, the OIG initiated
an investigation of an FBI shooting incident in Puerto Rico that resulted in the
death of Filiberto Ojeda Rios. Ojeda was a founder and leader of Los
Macheteros, a Puerto Rican pro-independence organization. Ojeda was
arrested in 1985 in connection with a major bank robbery in Connecticut, but
had been a fugitive since escaping in 1990 while released on bail.



Office of the Inspector General, U.S. Department of Justice              Page 16
      The FBI’s attempt to arrest Ojeda at a rural residence in western Puerto
Rico on September 23, 2005, resulted in an exchange of gunfire. An FBI agent
was wounded and Ojeda was shot. The OIG is examining the circumstances
surrounding the arrest, the shooting, and the FBI’s entry into the residence.

      As of March 2006, the OIG had interviewed approximately 60 witnesses
and reviewed several thousand pages of documents. We also have consulted
with outside experts to assist in our evaluation of the FBI operation and the
use of deadly force.

      F. The FBI’s Interviews of Potential Protestors in
         Advance of the 2004 National Political Conventions

       In the summer of 2004, news articles stated that the FBI had questioned
political demonstrators across the United States in connection with threatened
violent and disruptive protests at the Republican and Democratic National
Conventions held in the summer of 2004. The initial article stated that dozens
of people had been interviewed in at least six states, including anti-war
demonstrators and political demonstrators and their friends and family
members. The FBI issued a statement responding to these allegations which
stated in part: “The FBI is not monitoring groups, or interviewing individuals,
unless we receive intelligence that such individuals or groups may be planning
violent and disruptive criminal activity or have knowledge of such activity.”

       Following publication of the news articles, several members of Congress
requested that the OIG initiate an investigation into “possible violations of First
Amendment free speech and assembly rights by the Justice Department in
connection with their investigations of possible protests at the Democratic and
Republican political conventions in Boston and New York and other venues.”
In response, the OIG initiated an examination of the FBI’s use of its
investigative authorities to conduct interviews in advance of the 2004 national
political conventions and the FBI’s monitoring of protest groups in connection
with the national political events. This review is nearing completion, and the
OIG is in the process of drafting its report of investigation.

      G. Review of FBI Conduct Relating to Detainees in Military
         Facilities in Guantanamo Bay and Iraq

      The OIG is reviewing FBI employees’ observations and actions regarding
alleged abuse of detainees at Guantanamo Bay, Abu Ghraib prison, and other
venues controlled by the U.S. military. The OIG is examining whether FBI
employees participated in any incident of detainee abuse, whether FBI
employees witnessed incidents of abuse, whether FBI employees reported any
abuse, and how those reports were handled by the FBI. In addition, the OIG is
assessing whether the FBI inappropriately retaliated against or took any other



Office of the Inspector General, U.S. Department of Justice              Page 17
inappropriate action against any FBI employee who reported any incident of
abuse.

      As part of this ongoing review, the OIG has interviewed detainees, FBI
employees, and military personnel at Guantanamo. In addition, the OIG has
administered a detailed questionnaire to approximately 1,000 FBI employees
who served assignments at Guantanamo Bay, in Iraq, and Afghanistan. The
questionnaire requested information on what the FBI employees observed,
whether they reported observations of concern, and how those reports were
handled. The OIG has received over 900 responses to its questionnaire. The
OIG investigative team is conducting follow-up interviews and is in the process
of drafting the report summarizing the results of the investigation.

       H. DOJ OPR Reviews

              1. National Security Agency surveillance program

       In December 2005, several members of Congress sent a letter to the OIG
asking us to review the Attorney General’s authorization of warrantless
domestic surveillance by the National Security Agency (NSA). After careful
review of the request, the OIG concluded that the Department of Justice Office
of Professional Responsibility (DOJ OPR) rather than the OIG has jurisdiction
to conduct an investigation regarding the legal authorization for the NSA
surveillance program. 6 Consequently, the OIG referred the December 2005
letter to DOJ OPR. According to Counsel for DOJ OPR, his office has opened
an investigation into the role of Department attorneys in the legal authorization
and oversight of the NSA surveillance program and compliance with the
Foreign Intelligence Surveillance Act.

      However, the members of Congress argued in letters to the OIG that the
OIG had jurisdiction to review the matter by virtue of Section 1001 of the USA
Patriot Act. The Patriot Act, enacted into law in October 2001, required the
OIG “to review information and receive complaints alleging abuses of civil rights
and civil liberties by employees and officials of the Department of Justice.” The
issue presented by the members’ position is whether Section 1001 altered the
jurisdiction between the OIG and DOJ OPR with respect to who could

       6  Under a 1994 Attorney General order, OPR was given responsibility for investigating
“allegations of misconduct by Department attorneys that relate to the exercise of their authority
to investigate, litigate or provide legal advice. DOJ OPR shall also have jurisdiction to
investigate allegations of misconduct by law enforcement personnel when they are related to
the allegations of misconduct by attorneys within the jurisdiction of DOJ OPR.” For example,
OPR would be responsible for investigating alleged Brady violations by a Department attorney,
while the OIG would investigate an allegation of travel voucher fraud by the same attorney.
The respective jurisdictional authority of the OIG and OPR was codified into statute by the 21st
Century Department of Justice Appropriations Authorization Act. See Pub. L. 107-273 § 308,
116 Stat. 1784 (Nov. 2, 2002).



Office of the Inspector General, U.S. Department of Justice                          Page 18
investigate complaints of civil rights and civil liberties abuses involving
Department attorneys acting as attorneys, or whether the language maintained
the existing jurisdictional apportionment between the OIG and DOJ OPR.

      As referenced earlier in this report on pages 12-13, this issue arose
during the OIG’s investigation of the FBI’s actions in the Brandon Mayfield
case. In that case, although the OIG intended to investigate the entire Mayfield
matter, including the conduct of Department attorneys working with the FBI on
the case, DOJ OPR also asserted jurisdiction over the matter because it
involved the conduct of attorneys. Eventually, the Deputy Attorney General
ruled that Section 1001 of the Patriot Act did not change the existing
jurisdiction between the OIG and OPR, and that OPR should investigate the
conduct of attorneys and the OIG should investigate the conduct of FBI agents
in the Mayfield case.

       Therefore, under the Department’s interpretation of the jurisdictional
authority of the OIG and OPR, allegations regarding the Attorney General’s
legal authorization of NSA surveillance fell within DOJ OPR’s jurisdiction, not
the OIG’s. As noted above, DOJ OPR has opened its investigation relating to
this issue.

            2. Material witness warrants

       The American Civil Liberties Union (ACLU) and Human Rights Watch
issued a report in June 2005 entitled “Witness to Abuse: Human Rights Abuses
under the Material Witness Law since September 11.” The report reviewed a
number of material witness cases and alleged that the material witness law had
been misused to hold suspects in cases where there was insufficient evidence
to charge them criminally; a number of witnesses were not brought promptly
before a judge, were denied counsel, or were not provided with the reason for
their arrest; the government had improperly alleged that every witness was a
flight risk; the government had conducted abusive interrogations; and many of
the judicial proceedings were improperly conducted in secret.

      Based on the allegations in the report, DOJ OPR opened inquiries
regarding the allegations concerning 13 individuals, and one group of 8
individuals detained together. Some of these matters involved allegations that
individuals were held for long periods of time on material witness warrants
with no effort to obtain their testimony. Several of these individuals were later
charged criminally or deported based on immigration violations. Other matters
involved the alleged failure to bring individuals before a court within the
required time frame and failure to inform witnesses of the basis for their
arrest. DOJ OPR’s inquiry is ongoing.




Office of the Inspector General, U.S. Department of Justice            Page 19
V. REVIEW OF THE FBI’S REPORTING OF POSSIBLE INTELLIGENCE
   VIOLATIONS TO THE INTELLIGENCE OVERSIGHT BOARD

      During this reporting period, the OIG initiated an examination of the
FBI’s process for reporting possible violations involving intelligence activities to
the Intelligence Oversight Board (IOB). In this section, we describe the OIG’s
review. We provide background on the creation of the IOB, the FBI’s internal
process for reporting possible violations to the IOB, and the various authorities
that apply to the FBI’s intelligence activities. We also summarize our review of
the FBI documents analyzing and reporting the possible intelligence violations.

       The OIG is often asked whether any of the civil rights and civil liberties
allegations we reviewed and are required to report under Section 1001 involve
“violations of the Patriot Act.” This question with regard to the possible IOB
violations that we discuss in this section cannot be answered fairly with a
simple “yes” or “no.” Some of the reported IOB violations involve authorities
that have been altered or expanded by provisions of the Patriot Act. For
example, the Patriot Act changed the FISA statute and the statutes involving
National Security Letters, and in response to the Patriot Act, the Attorney
General Guidelines and internal FBI policies were also revised. On their face,
some of the possible violations reported to the IOB involve statutes, guidelines,
and policies altered in response to the Patriot Act, while others clearly did not.
However, we cannot say from our review whether or not the IOB violations
resulted from the changes brought about by the Patriot Act. Rather, we are
describing these possible IOB violations because of our obligation under
Section 1001 to report potential civil rights or civil liberties violations,
regardless of whether or not they involved authorities changed by the Patriot
Act.

        A. Background of the IOB

        In the 1970s, Congress conducted a series of hearings probing
allegations of improper domestic intelligence activities by the U.S. government,
including the FBI and the Central Intelligence Agency (CIA). The House of
Representatives and the Senate held hearings and issued reports documenting
improper intelligence activities directed at U.S. citizens, including covert
intelligence programs conducted by the FBI. Following these revelations,
Congress and the Executive Branch established various mechanisms to provide
additional oversight of intelligence activities in the United States. For example,
Congress enacted the Foreign Intelligence Surveillance Act of 1978 (FISA),
which established the Foreign Intelligence Surveillance Court (FISC), a special
court authorized to approve electronic surveillance and, later, physical
searches of U.S. citizens and others in the United States. The House of
Representatives and the Senate each established intelligence oversight
committees.


Office of the Inspector General, U.S. Department of Justice               Page 20
       In addition, an Executive Order signed by President Ford in 1976 created
an Intelligence Oversight Board (IOB) within the Executive Branch. Over the
next 20 years, the functions and organization of the board were modified by a
series of Executive Orders. The current Executive Order (E.O. 12863)
designates the IOB as a standing committee of the President’s Foreign
Intelligence Advisory Board (PFIAB) within the Executive Office of the President.
According to the E.O. 12863, the President appoints the 16 members of the
PFIAB “from among trustworthy and distinguished citizens outside the
Government who are qualified on the basis of achievement, experience and
independence.” Among its duties, the four-member IOB is charged with
reviewing activities of the U.S. intelligence community and informing the
President of any activities that the IOB believes “may be unlawful or contrary to
Executive order or Presidential Directives.” E.O. 12863 also provides that
inspectors general and general counsels of the Intelligence Community are to
report to the IOB on at least a quarterly basis intelligence activities they “have
reason to believe may be unlawful or contrary to Executive order or Presidential
directive.” 7

      The IOB does not normally provide its reports to Congress, and only one
IOB report to the President has been made public. In June 1996, the IOB
released a report on the role of U.S. intelligence agencies in Guatemala in the
1980s and early 1990s.

      However, a Freedom of Information Act (FOIA) request recently resulted
in the public disclosure of redacted versions of 20 of the FBI reports to the IOB
of possible intelligence violations. The FBI’s reports to the IOB are classified.
The redacted reports released in response to the FOIA request indicated that
the FBI has reported to the IOB a variety of possible intelligence violations,
including violations of the FISA, statutes involving the issuance of National
Security Letters, Attorney General Guidelines, and internal FBI policy.

       B. The FBI’s Procedures for Evaluating and Reporting Possible IOB
          Violations

       Pursuant to E.O. 12863 and guidance provided by the IOB and the
Department’s Office of Intelligence Policy and Review (OIPR), the FBI has
developed a process for evaluating possible violations of laws or policies
governing its use of intelligence authorities to determine if the possible
violations should be reported to the IOB. The current FBI process is described
in a memorandum dated February 10, 2005, to all FBI divisions from the FBI’s
Inspection Division, entitled, “Revised Procedures for the Submission of
Reports of Potential Intelligence Oversight Board (IOB) Matters.” The

       7  The function of evaluating FBI reports of possible IOB violations has been performed
by the Office of the General Counsel of the FBI (FBI-OGC).


Office of the Inspector General, U.S. Department of Justice                         Page 21
memorandum describes the process the FBI uses to report to the IOB
“intelligence activities conducted by the FBI which may have been unlawful or
contrary to Executive Orders, Presidential Directives, Department guidelines or
investigative procedures.” While portions of the memorandum are classified,
we provide below an unclassified summary of the FBI procedures from this
memorandum and other unclassified sources.

       The procedures require FBI employees to report potential IOB violations
(described in subsection C below) within 14 days of discovery both to the FBI’s
National Security Law Branch (NSLB) in FBI-OGC and the Internal
Investigations Section (IIS) of the FBI Inspection Division. FBI headquarters’
divisions and field office supervisors also are responsible for monitoring
intelligence activities and reporting possible IOB violations to FBI-OGC and IIS.
Each FBI field office and headquarters’ division is required to submit quarterly
reports to FBI-OGC certifying that all employees were contacted concerning the
requirements to report possible IOB matters.

       When possible IOB violations are reported to FBI-OGC and IIS, the field
office or FBI headquarters division is required to include a description of the
status of the subjects of the investigative activity at issue, the legal authority
for the investigation, the potential violation, and when it occurred. The only
function that IIS serves when it receives the incoming report is to open a file
and assign a number to the IOB matter. IIS then forwards the incoming report
with the number assigned to FBI-OGC.

       FBI-OGC reviews the incoming report describing the possible IOB
violation and prepares a written opinion as to whether the matter should be
reported to the IOB under internal standards developed by FBI-OGC and the
IOB. If FBI-OGC determines that the matter should be reported to the IOB,
FBI-OGC prepares correspondence to the IOB setting forth the basis for the
notification. A copy of the correspondence to the IOB is sent to IIS, the FBI
Inspection Division, the Special Agent in Charge or Assistant Director of the
office where the matter originated, the Office of the Attorney General, and
OIPR.

       The February 10, 2005, FBI memorandum identifies six possible
violations that must be reported to the IOB, two of which are classified. The
four unclassified possible violations are:

      1. Activities believed to be unlawful or contrary to Executive Orders or
Presidential Directives.

      2. Suspected violations of the United States Constitution.




Office of the Inspector General, U.S. Department of Justice             Page 22
      3. Initiating a form of electronic surveillance or search without
authorization from the FISC or failing to terminate the authorized surveillance
at the time prescribed by the FISC.

       4. Failing to adhere to minimization or dissemination requirements
specified in the FISC order. 8

        However, FBI-OGC sometimes concludes that a possible violation is not
sufficiently serious to warrant reporting to the IOB. In coordination with the
IOB, FBI-OGC has established a de minimis standard for possible violations
that fall outside the reporting requirement. Among the matters reported to
FBI-OGC deemed to fall within the de minimis standard were slightly untimely
reports of documentation of the initiation or progress of investigations, slightly
untimely submission of requests to approve the extension of investigations, or
the continuation of investigations after their authority expired with little or no
investigative activity during the period outside the authorization. According to
internal FBI memoranda released in redacted form in the course of the FOIA
litigation referenced above, “violations of provisions that are essentially
administrative in nature need not be reported to the IOB.”

       If FBI-OGC determines that the possible violation is non-reportable, then
FBI-OGC must retain the incoming memorandum reporting the possible
violation for three years together with the FBI-OGC opinion stating the basis
for the determination not to report to the IOB. These documents are
maintained in the event that Counsel to the IOB wants to review them.

       If the possible IOB violation involves the unintentional or improper
acquisition of information under FISA, the information is either destroyed or
provided to OIPR for sequestration with the FISC. In addition, the government
provides an explanation of the matter to the FISC. If the possible IOB violation
involves the unintentional acquisition of information unrelated to a FISC order,
the FBI is supposed to take appropriate remedial action and initiate steps to
obtain the information appropriately. In most cases, remedial action is
initiated by the field office at the time the possible violation is discovered. In
addition, FBI-OGC may also direct, or OIPR may recommend, that remedial
action be taken.

      If FBI-OGC determines that the conduct of an FBI employee involved in
the possible IOB violation is more than a performance issue, FBI-OGC refers
the matter to the FBI’s IIS for appropriate investigation. Over the past two
years, IIS has investigated several IOB matters. Upon the completion of an
investigation of an IOB violation which is alleged to have been committed by an


       8  FISA imposes minimization requirements “reasonably designed . . . to minimize the
acquisition and retention, and prohibit the dissemination, of nonpublicly available information
concerning unconsenting United States persons . . .” 50 U.S.C. §§ 1801(h)(1), 1821 (4)(A).


Office of the Inspector General, U.S. Department of Justice                         Page 23
FBI employee, the findings are referred to the FBI Office of Professional
Responsibility (FBI-OPR) for adjudication.

      FBI-OPR has adjudicated several of these matters since 2001 and has
imposed discipline on a few FBI employees arising from the reported IOB
matters. The discipline in these cases has included counseling, oral
reprimands, letters of censure, or suspensions. For example, FBI-OPR
imposed a 3-day suspension on an FBI Supervisory Special Agent who failed to
ensure compliance with the FISA requirement that Attorney General approval
be obtained prior to the use of FISA-derived information in grand jury
subpoenas.

      In addition to the self-reporting procedure set forth above, the FBI’s
Inspection Division has included an audit of the IOB process and a limited
review of closed counterintelligence files within the scope of its triennial
inspections of FBI field offices and FBI headquarters’ divisions. As part of its
normal inspection process, the Inspection Division conducts a pre-inspection
survey and reviews a sample of closed files to test compliance with the
requirements to report possible IOB violations to IIS and FBI-OGC in a timely
fashion. In the course of these efforts, the Inspection Division has identified
possible IOB violations, the findings of which were reported to FBI-OGC and,
where appropriate, the IIS.

      C. Summary of Possible Intelligence Violations reported to the IOB
         in FY 2004 and 2005

       The OIG examined FBI documents reflecting the reporting of possible IOB
violations to FBI-OGC in accordance with the process described above. In
addition, we reviewed the FBI’s reports to the IOB in fiscal years (FY) 2004 and
2005 and the internal FBI-OGC memoranda reflecting the incidents reported
and not reported to the IOB. The FBI made 108 reports of possible violations
to the IOB for these two years.

      The reports to the IOB describe incidents that generally fell into one or
more of the following three categories: (1) improper utilization of authorities
under FISA; (2) failure to adhere to Attorney General Guidelines or
implementing FBI policy; and (3) improper utilization of authorities involving
National Security Letters.

       The matters reported to the IOB in FY 2004 and 2005 encompassed the
range of intelligence activities used by the FBI, and the possible violations
varied from relatively minor to significant. However, possible violations
generally related to “over-collection” and “overruns.” An “over-collection” refers
to information gathered within the authorized period of a FISC order but
outside the scope or intent of the order. An “overrun” refers to investigative
activity conducted outside the time period of the FISC order or outside the


Office of the Inspector General, U.S. Department of Justice             Page 24
authorized period of investigative activity, which may involve the collection of
unauthorized information. In some instances, agents may have reported to
FBI-OGC a possible violation involving both an overrun and an over-collection.

      With respect to “over-collection” and “overruns” of information collected
pursuant to FISA authorities, based on matters for which data was available,
we determined that the average duration of the over-collections and overruns
reported to the IOB was approximately 24 days in FY 2004 and 16 days in FY
2005. 9 The duration of possible violations of the Attorney General Guidelines
or FBI implementing policy governing national security investigations averaged
185 days in FY 2004 and 130 days in FY 2005 for the reports we examined in
which the duration of the possible violation was readily available.*

       The nature of the information collected either as over-collection or
overruns under FISA or NSL authorities or in the course of national security
investigations where Attorney General Guidelines, FISC orders, or FBI policy
may have been violated included telephone calls, audio recordings, facsimile
intercepts, e-mail communications, financial records, and credit reports. In
one matter reported to the IOB, the FBI received 181 full content telephone
calls instead of just billing and toll records.




       9
           For those matters reported to the IOB in FY 2004, arising solely from the FBI’s use of
FISA authorities, where the possible violation was attributable either solely or partially to FBI
conduct, the duration of over-collections and overruns averaged 26 days, the median was 16
days, and the range was from 1 day to 120 days. For those matters reported to the IOB in FY
2004 where the violation was ascribed solely to the conduct of a third party, the duration of the
over-collections and overruns averaged 21 days. The median was 14 days, and the range was
from 1 day to 92 days.

        For those matters reported to the IOB in FY 2005, arising solely from the FBI’s use of
FISA authorities, where the possible violation was attributable either solely or partially to FBI
conduct, the duration of the over-collections and overruns averaged 9 days. The median was 8
days, and the range was from 1 day to 21 days. For those matters reported to the IOB in FY
2005 where the violation was ascribed solely to only the conduct of a third party, the duration
of the over-collections and overruns averaged 46 days. The median was 19 days, and the range
was from 1 day to 58 days.

        These figures are estimates because the files we reviewed did not always state when the
overrun or over-collection began, when the FBI or third party discovered it, or when the
violation was corrected. To calculate the average length of time in days that the over-
collections or overruns lasted, we subtracted the date when the possible violation began from
the date the violation was corrected. If either date could not be readily determined, the matter
was not included in our calculation. This calculation does not reflect how quickly the FBI
acted to end the violation upon discovery. The FBI stated that its policy is to terminate
overruns and over-collections immediately upon discovery.
     * The report released on March 8, 2006, contained data errors that affected the calculations of the
     average duration of over-collections and overruns in this paragraph and in footnote 9. This version of
     the report contains the corrected numbers for this calculation and also the calculation of the average
     duration of possible violations involving the Attorney General Guidelines or FBI implementing policy.


Office of the Inspector General, U.S. Department of Justice                                             Page 25
      The possible violations reported to the IOB occurred in various FBI
headquarters divisions and field offices. Ten different field offices generated
four or more matters reported to the IOB in the 2-year period under review.
The most reports generated by a single field office or headquarters’ division
during this period was eight.

       Timeliness of Internal FBI Reporting to FBI-OGC. As noted above, FBI
policy requires that agents must report possible IOB violations to FBI-OGC
within 14 days after discovery. In the cases in which we could determine the
date the possible violation was discovered (over 80 percent), FBI personnel
referred to FBI-OGC possible IOB violations within the 14-day standard in
slightly over half of the cases in both years. The average time that elapsed
from the date of discovery of the possible violation to the date of its referral to
FBI-OGC was approximately 50 days in both years. 10

       Amount of Time for FBI-OGC Review. Although FBI policy does not
specify a time limit, we calculated the amount of time FBI-OGC has taken to
decide whether to report the possible violations to the IOB. On average, the
time between the date of the report from the field office or headquarters’
division and the date that FBI-OGC sent the reporting field or headquarters’
division a notification that it would report the matter to the IOB was 140 days
for matters reported to the IOB in FY 2004 and 101 days for matters reported
in FY 2005. 11 *

       U.S. versus Non-U.S. Persons. In a significant majority of the matters
referred to FBI-OGC, we were able to determine whether the subject or target
was a “U.S. person” for purposes of FISA. In more than two-thirds of these
matters in both years, the subjects or targets of the surveillance or physical
search were U.S. persons only. In FY 2004, approximately one-third of these
cases involved only non-U.S. persons as subjects or targets, with
approximately one-fifth in this category in FY 2005.




       10 To calculate the timeliness of internal FBI reporting of all potential IOB violations, we
subtracted the date that the possible violation was discovered from the date of the incoming
memorandum reporting the possible violation to FBI-OGC. We did not include in this
calculation any matters reported to FBI-OGC for which the date of the possible violation could
not be ascertained.

         11 For this calculation, we subtracted the date of FBI-OGC’s memorandum advising the

field or headquarters division that it would report the possible violation to the IOB from the
date of the incoming memorandum to FBI-OGC. Some of the matters reported to the IOB in FY
2004 and FY 2005 included matters referred to FBI-OGC in FYs 2002 and 2003 (7 percent);
however, these matters are not included in the calculations.
     * The report released on March 8, 2006, contained data errors that affected the calculation of the average
     time of FBI-OGC review of possible IOB violations in FY 2005. This version of the report contains the
     corrected number.



Office of the Inspector General, U.S. Department of Justice                                             Page 26
       Possible Violations that Involved Third Parties. Some possible IOB
violations were attributable to the conduct of third parties. According to the
data we reviewed, third parties such as telephone companies were involved in
or responsible for the possible violations referred to FBI-OGC in approximately
one-quarter of the cases in FY 2004 and 31 percent in FY 2005. For example,
companies sometimes provided content not authorized by the FISC order or
National Security Letter. In other cases, they failed to inform the FBI that the
subjects of the surveillance had changed their telephone numbers.

       Types of Reports to the IOB Involving Improper Use of FISA Authorities.
The reports we examined referenced incidents in which FBI personnel:

   •   intercepted communications outside the scope of the FISC order,
       whether due to FBI or third-party error, resulting in intercepts of the
       wrong telephone number, the wrong facsimile number, the wrong target,
       or the wrong locations;
   •   improperly disseminated FISA-derived information;
   •   violated minimization rules designed to protect the rights of U.S. citizens;
       and
   •   used FISA-derived information to obtain other information about the
       subject without first obtaining Attorney General authority to do so.

      Approximately 54 percent of the reports we examined for FY 2004 and 47
percent of the reports we examined for FY 2005 fell into the category of
improper use of FISA authorities.

       Reports to the IOB Involving Failure to Adhere to Attorney General
Guidelines or FBI Implementing Policy. We also examined possible IOB
violations arising from failure to adhere to the Attorney General’s Guidelines on
National Security Investigations and Foreign Intelligence Collection (or the
predecessor Attorney General Guidelines known as the Attorney General
Guidelines for FBI Foreign Intelligence Collection and Foreign
Counterintelligence Investigations), or failure to comply with FBI internal
manuals implementing the Guidelines. These Attorney General Guidelines
establish the subject matter, approval levels, timing, and limitations on
counterterrorism and counterintelligence investigations and are further
explained by internal FBI manuals and guidance. The possible violations of
these Guidelines and FBI policy include incidents in which FBI personnel:

   •   initiated investigative activity without proper authorization;
   •   continued investigative activity after the authority expired;
   •   failed to file or failed to timely file periodic memoranda with their
       supervisors and headquarters personnel documenting initiation or
       extension of the investigation; and
   •   used investigative techniques authorized by the Guidelines on the wrong
       individual.


Office of the Inspector General, U.S. Department of Justice              Page 27
     Approximately 35 percent of the matters in FY 2004, and 49 percent in
FY 2005 fell into this category.

      Reports to the IOB Involving National Security Letters. The FBI reports of
possible IOB violations reference instances in which the potential violation
arose from the FBI’s use of its authority to issue National Security Letters.
These included incidents in which:

   •   third parties provided e-mail content information that was not requested
       or authorized;
   •   a National Security Letter was issued after the investigation was
       extended without authorization;
   •   the FBI issued a National Security Letter for the wrong subject due to a
       similar name; and
   •   typographical errors by the FBI led to the collection of information about
       an individual who was not a subject of the investigation.

       Approximately 13 percent of the reports we examined for FY 2004 fell
into this category, compared with approximately 4 percent of the reports we
examined for FY 2005.

        Reported vs. Unreported Matters. Approximately two-thirds of the
matters sent to the FBI-OGC resulted in reports to the IOB in FY 2004 and
2005. We examined the nature of the matters not reported to the IOB and
determined that most of the matters not reported fell into the category involving
violations of Attorney General Guidelines and implementing FBI policy. For
example, FBI-OGC did not report an incident in which an FBI agent failed to
file a timely report on a human source as required by FBI policy.

      In most instances, factual distinctions evident from the field office’s or
headquarters division’s memoranda to FBI-OGC appeared to justify the
decision not to report the violation to the IOB. In several instances, however, it
appeared that some factually similar incidents led to reports to the IOB, while
others did not. For these cases, we intend to ascertain whether the FBI had a
reasonable explanation for the apparent discrepancy in the reporting decisions.

       The chart below summarizes the percentages of possible violations
reported to the IOB in the three main categories described above, broken down
by specific intelligence activity. It is important to note that the following
percentages of matters reported to the IOB should not be interpreted to reflect
the level or volume of collections in the various categories.




Office of the Inspector General, U.S. Department of Justice             Page 28
Summary of Possible Violations Reported to the IOB (FY 2004-2005)
                                Category                                    2004       2005
                                  FISA
Electronic Surveillance (ELSUR) not within authorized time period
(“overrun”) 12
    -Telephone number                                                       0.0%        0.0%
    -Telephone communications/Audio recordings                               3.2%       2.2%
    -Facsimile number                                                        0.0%       0.0%
    -Facsimile number intercept                                              3.2%       0.0%
    -E-mail address                                                         0.0%        0.0%
    -E-mail communication                                                    4.8%       4.4%
ELSUR Not Within Authorized Time Period Subtotal                            11.2%       6.6%
ELSUR outside scope/intent of FISC order (“over-collection”)
    -Incorrect telephone number                                             9.5%        8.9%
    -Telephone communications/Audio recordings                              12.7%      11.1%
    -Incorrect facsimile number                                             0.0%        4.4%
    -Facsimile intercept                                                     0.0%       4.4%
    -Incorrect E-mail address                                                3.2%       6.7%
    -E-mail communication                                                    4.8%      15.6%
    -Incorrect subject                                                      4.8%       13.3%
    -Incorrect location                                                     0.0%        0.0%
   -Other                                                                   9.5%        4.4%
Failure to comply with OIPR directive to terminate collection               3.2%        0.0%
ELSUR Not Authorized by FISC Order Subtotal                                 47.7%      68.8%
Improper use of ELSUR to access financial and other records                  3.2%       2.2%
FISA physical search conducted prior to receipt of Emergency
                                                                            3.2%        0.0%
Authorization from the Attorney General
Unauthorized or improper dissemination                                       3.2%       0.0%
Violation of minimization procedures                                         3.2%       0.0%
Failure to complete timely search warrant return                            0.0%        0.0%
FISA Subtotal (Includes ELSUR not within authorized time period and not
                                                                            71.4%      77.8%
authorized by FISC order)




        12 The term "electronic surveillance" (ELSUR) means the acquisition of the contents of

certain wire or radio communications by an electronic, radio, or other surveillance device, or
the installation or use of such a device in the United States for monitoring to acquire other
types of information. The four types of ELSUR are set forth in 50 U.S.C. § 1801(f).



Office of the Inspector General, U.S. Department of Justice                         Page 29
                       AG Guidelines/FBI Policy
Failure to file timely periodic Letter Head Memorandum (LHM) 13            4.8%       4.4%
Failure to file periodic LHM                                               6.3%       6.7%
Failure to file timely annual LHM                                          1.6%       4.4%
Failure to file annual LHM                                                 4.8%       2.2%
Failure to obtain extension for PI (no investigative activity)             3.2%       0.0%
Investigation without authorization (PI or Full)                           7.9%       0.0%
Investigation after authority expired (PI or Full)                         9.5%       24.4%
Failure to properly close investigation (PI or Full)                       1.6%       8.9%
Mail covers for the wrong individual(s)                                    0.0%       2.2%
Exceeded AG-approved deposit limit for undercover operation                0.0%       0.0%
Failure to file timely evaluation of human source                          0.0%       0.0%

AG Guidelines/FBI Policy Subtotal                                         39.7%       53.3%

                    National Security Letters (NSL)
Improperly prepared NSL (such as wrong name)                               6.3%       2.2%
Content provided outside of NSL request                                    4.8%       2.2%
NSL issued after closure of investigation                                  1.6%       0.0%
NSL Subtotal                                                              12.7%       4.4%
                             U.S. Constitution                             0.0%       0.0%
      Ex Parte Orders from FISC for Business Records (§ 215)               0.0%       0.0%
Source: OIG analysis of files provided by FBI-OGC
Note: Several possible IOB violations appear in multiple categories

      The OIG intends to continue to monitor the FBI’s process for handling
IOB matters. In addition, in the OIG’s ongoing review of certain authorities
amended by the Patriot Act, which is referenced in section IV. A. of this report,
we intend to examine the effectiveness of the FBI’s self-reporting system for
possible IOB violations in the context of its use of authorities to issue National
Security Letters.




      13   The FBI uses LHMs to document the opening or status of investigations.



Office of the Inspector General, U.S. Department of Justice                         Page 30
VI. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $1,330,621 in
personnel costs, $22,787 in travel costs (for investigators to conduct
interviews), and $1,972 in miscellaneous costs, for a total of $1,355,380 to
implement its responsibilities under Section 1001. The total personnel and
travel costs reflect the time and funds spent by OIG special agents, inspectors,
and attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice            Page 31
